          Review of Mainframe Access Controls at the Application Level
          Federal Financial System, Report No. 04-07, September 7, 2004

                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) audit of the
effectiveness of access controls in ensuring security over the Federal Financial System
(FFS), a component of the Railroad Retirement Board’s (RRB) financial management
application system.

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid out nearly $9 billion in benefits during fiscal
year (FY) 2003.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity, and the end-user
computing system, which supports the agency’s local (LAN) and wide area networks.
The major application systems correspond to the RRB’s critical operational activities:
payment of RRA and RUIA benefits, maintenance of compensation and service records,
administration of Medicare entitlement, financial management, personnel/payroll, and
the RRB’s financial interchange with the Social Security Administration.

The agency’s Chief Information Officer, also the director of the RRB’s Bureau of
Information Services, has overall responsibility for administration of both data
processing and end-user computing as well as in-house systems development. Within
the Bureau of Information Services, the Chief Security Officer has primary responsibility
for coordinating, evaluating and reporting on information security within the agency.

FFS is a mainframe application that supports financial management and reporting
including control of the agency’s budget, procurement and preparation of the interim
and annual financial reports. Access to the mainframe environment is password
protected. FFS includes an additional system of security functions that controls user
accesses, document approval processing procedures and logging features.

The Bureau of Fiscal Operations is the owner-of-record for FFS and has responsibility
for system administration. The system administrator maintains the security settings
within FFS, including the access privileges of new and existing users. FFS is used
extensively throughout the agency. In December 2003, approximately 500 of the
agency’s 1,128 employees had access to FFS.



                                            1

Information security is defined as protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide integrity, confidentiality and availability. Access controls limit or detect access
to computer resources (data, programs, equipment, and facilities), thereby protecting
these resources against unauthorized modification, loss, and disclosure. Previous OIG
security evaluations cited the agency for a material weakness due to significant
deficiencies in access controls in both the mainframe and end-user computing
environments and in the training provided to staff with significant security
responsibilities.

The Office of Management and Budget (OMB) has published guidance to assist Federal
managers in meeting the management control and computer security requirements of
the Computer Security Act of 1987, the Chief Financial Officers Act of 1990, and the
Clinger-Cohen Act of 1996. OMB Circular A-130, “Management of Federal Information
Resources,” Appendix III, dated November 30, 2000, establishes policy for the
management of Federal information resources and establishes a minimum set of
controls to be included in Federal automated information security programs.

This evaluation was conducted pursuant to the E-Government Act of 2002 (P.L. 107-
347), Title III, the Federal Information Security Management Act of 2002 (FISMA), which
requires annual Inspector General security evaluations.


Objective, Scope and Methodology

The objective of this evaluation was to assess the effectiveness of access controls in
limiting and detecting access to the FFS system.

In order to accomplish our objective, we:

   •	 identified users of FFS as of December 2003 and documented their system
      privileges;
   •   obtained an understanding of the security configuration of the FFS system;
   •	 obtained an understanding of the policies and procedure through which system
      access is requested, authorized, granted and maintained;
   •	 obtained an understanding of the access re-authorization process through
      discussions with responsible management and staff, and reviews of supporting
      documentation as available; and
   •	 used statistical sampling to assess the effectiveness of controls in limiting access
      to FFS.

Our sampling methodology and results are presented in Appendix I to this report.




                                             2

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters in Chicago, Illinois during December 2003 through May 2004.


                                RESULTS OF REVIEW 


Our audit tests disclosed that existing controls are not adequate to ensure that FFS
users are limited to only those system privileges required for the performance of their
current jobs. In addition, we observed that FFS features designed to ensure
accountability for changes to certain security settings have not been implemented. We
also questioned the level of assurance provided by current document approval settings.

The details of our findings and recommendations follow. Management has agreed to
take the recommended corrective action. The full text of the responses of the Bureaus
of Information Services and Fiscal Operations are included in this report as appendices
II and III respectively.


Controls Are Not Effective in Limiting Access

The RRB’s existing control framework is not adequate to ensure that the access
privileges granted to users of the FFS are limited to those required for their performance
of their current job. Our conclusion is based on the results of a statistical sample that
indicate the agency has not ensured that the privileges of at least 95% of FFS users
have been appropriately restricted.

OMB Circular A-130 requires Federal agencies to limit a user’s access (to data files,
processing capability, or peripherals) or type of access (read, execute, delete) to the
minimum necessary to perform his or her job. Current RRB policy calls for periodic
system re-authorization reviews, an internal control process designed to identify
changes in user needs. During the re-authorization, supervisors have the opportunity to
review the current access privileges of their staff and identify any needed changes or
corrections.

The Bureau of Fiscal Operations, the system owner, is responsible for ensuring that re-
authorization reviews are scheduled and completed. The Bureau of Fiscal Operations
has not performed a re-authorization review for nearly five years. The last re-
authorization of the FFS system was conducted in 1999. A review scheduled for FY
2003 was not performed and had not been re-scheduled as of the end of our fieldwork.

In addition to the lack of an effective re-authorization process, we also noted that
higher-level executives are often granted system privileges for document entry and
approval although these tasks are typically performed by subordinate staff members.




                                            3

During the period of our review, the agency’s Chief Security Officer, organizationally
within the Bureau of Information Services Risk Management Group, had not assumed
any direct oversight responsibility for this process. The lack of effective procedures and
controls to ensure that FFS user accesses are limited to the requirements of their
current job weakens the overall structure of information security.

Recommendations

We recommend that:

   1. 	 The Bureau of Information Services implement a quality assurance program to
        ensure the effectiveness of the re-authorization process for FFS. Such a process
        should include:

       •   a review for completeness of documentation;
       •   periodic testing to verify the effectiveness of the process; and
       •	 issuance of an annual report communicating to the Chief Information Officer
          the results of the annual re-authorization process including an objective
          assessment of its overall effectiveness.

   2. 	 The Bureau of Fiscal Operations, as the system owner, coordinate a review of
        pre-defined security profiles to ensure that they properly reflect current job
        requirements.

Management’s Response

The Bureau of Information Services concurs with the recommendation for
implementation of a quality assurance program and state that they have already
submitted a personnel request to assign staff; however, due to limited resources, the
implementation of the program will be a multi-phased approach.

The Bureau of Fiscal Operations agrees that predefined security profiles for FFS users
should reflect their current job requirements and will conduct a review of FFS security
profiles.


Accountability for Changes to Core Security Controls Not Ensured

Existing controls do not provide adequate accountability for changes to FFS’ core
security tables. As a result, the system audit trail is not adequate to identify the sources
of changes to security settings.

OMB Circular A-130 requires Federal information systems provide accountability.
Accountability is defined as the existence of a record that permits the identification of an
individual who performed some specific activity so that responsibility for that activity can



                                             4

be established. We would have expected to see an audit trail, in the form of transaction
logs, for changes to all core security tables to ensure accountability as well as
separation of duties between those system users who initiate/approve changes and the
agency personnel who review the logs.

FFS has the capability to provide accountability through the creation of logs that capture
date, time and initiator of changes to security tables. However, this feature has not
been implemented for the tables that comprise FFS’ core system security.

Only FFS system administrators can initiate changes to system security settings. The
system administrators determine which changes will be logged. The need for logging
changes to core security tables was overlooked because of the small number of
individuals within the agency who can make such changes and the strong trust
relationship among them.

Recommendation

We recommend that:

   3. 	 the Chief Security Officer work with the system administrator to determine which
        security-related transactions should be logged, and identify the appropriate level
        of management to receive and review the logs.

Management’s Response

The Bureau of Information Services concurs with the recommendation and has agreed
that the Chief Security Officer will work with the FFS system administrator to determine
which security-related transactions should be logged and the appropriate level of
management to receive and review them.


Implementation of Document Approvals

The document approval functions of FFS have been implemented in a manner that
implies a higher level of assurance about separation of duties than is actually achieved.

Transaction processing typically requires at least one level of approval; however, the
system has been configured so that:

    •	 transactions requiring only one level of approval can be authorized by the same
       person who enters the transaction, and
    •	 transactions requiring multiple levels of approval can be fully authorized by a
       single individual.




                                            5

Transactions, such as document approvals, should be executed in accordance with
management’s directives.1 The security settings for individual transactions within FFS
imply a high level of control through strict separation of duties which, in reality, has not
been achieved. As a result, we question whether the current combination of system
settings achieves management’s intentions with respect to separation of duties and the
authorization of transactions.

Recommendation

We recommend that:

    4. 	 the Bureau of Fiscal Operations coordinate a review of the core security settings
         to ensure that the configuration of document approvals and award of approval
         privileges has properly implemented management’s intentions with respect to
         transaction processing.

Management’s Response

The Bureau of Fiscal Operations agrees with the recommendation and will conduct a
review of the core security settings.




1
  “Standards for Internal Control in the Federal Government,” General Accounting Office, November
1999, GAO/AIMD-00-21.3.1




                                                 6

                                                                               Appendix I
                         Sampling Methodology and Results

We used statistical sampling to assess the effectiveness of controls designed to limit
FFS user access to those privileges required in performance of their assigned duties.

Audit Objective

The objective of our test was to determine whether the agency has been effective in
restricting the privileges of users of FFS to only those required for performance of their
current job.

Scope

We selected the sample from the population of 527 FFS users as of December 2003.

Review Methodology

We used statistical acceptance sampling using a 95% confidence and 5% tolerable
error which directed a 142 case sample. The threshold for acceptance was three
exceptions. Three exceptions would permit the auditors to infer, with 95% confidence,
that controls were adequate to ensure that no fewer than 95% of FFS users had only
the access privileges required for their current job.

Any user who had privileges that exceeded the requirements of their current position
was counted as an exception.

Results of Review

Our evaluation of 142 randomly selected FFS user access profiles identified eight users
whose access profile included privileges that were not required to perform current job
responsibilities. We identified:

   •	 five executives who had been given and maintained access to process
      procurement-related transactions that they did not use because those
      responsibilities had been delegated to subordinates;
   •	 two employees who had retained privileges required for a previous position but
      not required by their current job; and
   •	 one employee who had been granted privileges inconsistent with current or past
      job responsibilities.

Audit Conclusion

The eight exceptions exceed the sample acceptance threshold. As a result, we cannot
conclude that controls are adequate to ensure that at least 95% of FFS users had only
the access privileges required for performance of their current job.




                                             7

